WAIVER
Supreme Court of the United States
No. 20-102
Christopher Hadsell
(Petitioner)

v.

Barry Baskin, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
to There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
Kimberly Campbell and William Whiting

I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.
Signature:_/s/ Alison P. Buchanan
Date:

September 2, 2020

(Type or print) Name_Alison P. Buchanan
0 Mr.
0 Ms.
Firm

Hoge Fenton Jones & Appel, Inc.

Address

60 S. Market St., Ste. 1400

City & State _San Jose, CA

0 Mrs.

0 Miss

Zip _95113_

Phone _408-287-9501
SEND.A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc: Christopher Hadsell

RECEIVED
Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

SEP 1 0 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

